Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



PARKLAND HEALTH AND HOSPITAL
SYSTEM CLAIMED UNALLOWABLE
 MEDICARE REIMBURSEMENT FOR
 HOSPITAL OUTPATIENT DENTAL
          SERVICES


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patricia Wheeler
                                               Regional Inspector General

                                                      November 2013
                                                      A-06-13-00003
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                1100 C OMMERCE S TREET, R OOM 632
                                                                                  D ALLAS , TX 75242
November 18, 2013

Report Number: A-06-13-00003

Mr. H. Gene Lawson
Senior Vice President, Revenue Cycle
Parkland Health and Hospital System
8435 Stemmons Freeway No. 700
Dallas, TX 75247

Dear Mr. Lawson:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Parkland Health and Hospital System Claimed Unallowable
Medicare Reimbursement for Hospital Outpatient Dental Services. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
https://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414, or contact Paul Garcia, Audit Manager, at (512) 339-3071, ext. 229, or through
email at Paul.Garcia@oig.hhs.gov. Please refer to report number A-06-13-00003 in all
correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. H. Gene Lawson


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
                                      EXECUTIVE SUMMARY

 Parkland Hospital improperly claimed at least $743,582 in Medicare reimbursement for
 hospital outpatient dental services.


WHY WE DID THIS REVIEW

Dental services are generally excluded from Medicare coverage. Previous Office of Inspector
General work identified Medicare payments that exceeded charges for outpatient services,
resulting in significant overpayments. Some of these payments included charges for unallowable
outpatient dental services. For calendar years 2010 and 2011, Parkland Health and Hospital
System (Parkland Hospital) received the most reimbursement of any hospital in Texas for certain
Medicare outpatient dental services that we determined may be unallowable.

The objective of this review was to determine whether Parkland Hospital claimed Medicare
hospital outpatient dental services in accordance with Medicare requirements.

BACKGROUND

Medicare generally does not cover dental services for the care, treatment, filling, removal, or
replacement of teeth or structures directly supporting the teeth (e.g., preparation of the mouth for
dentures or removal of diseased teeth in an infected jaw). Coverage is not determined by the
value or the necessity of the dental care but by the type of service provided and the anatomical
structure on which the procedure is performed. For hospital outpatient dental services to be
covered, they must be performed as part of a procedure or service covered by Medicare.

HOW WE CONDUCTED THIS REVIEW

Our review covered 1,002 Medicare claim lines for hospital outpatient dental services, totaling
$1,200,587, provided by Parkland Hospital during the period January 1, 2010, through December
31, 2011. We excluded claim lines associated with a diagnosis related to cancer or physical
trauma because Medicare officials explained that these services are generally eligible for
Medicare payment. We reviewed a stratified random sample of 100 Medicare claim lines for
hospital outpatient dental services.

WHAT WE FOUND

Parkland Hospital claimed Medicare reimbursement for hospital outpatient dental services that
did not comply with Medicare requirements. Of the 100 claim lines in our stratified random
sample, Parkland Hospital properly claimed Medicare reimbursement for one claim line.
Parkland Hospital reimbursed Medicare for one paid claim line before our audit work. The
remaining 98 claim lines were not claimed in accordance with Medicare requirements.

These errors occurred because Parkland Hospital did not have written policies and procedures in
place during our audit period related to billing for dental services. Additionally, Parkland



Parkland Hospital Medicare Outpatient Dental Services (A-06-13-00003)                                  i
Hospital did not have system billing edits in place to ensure that it billed only for services that
met Medicare requirements.

Using our sample results, we estimated that Parkland Hospital improperly received at least
$743,582 in Medicare reimbursement for hospital outpatient dental services that did not comply
with Medicare requirements.

WHAT WE RECOMMEND

We recommend that Parkland Hospital:

        •   refund $743,582 to the Medicare administrative contractor and

        •   establish written policies and procedures and implement system billing edits to ensure
            that dental services are claimed in accordance with Medicare requirements.

PARKLAND HEALTH AND HOSPITAL SYSYTEM COMMENTS

In its comments on our draft report, Parkland Hospital agreed with our findings and
recommendations.




Parkland Hospital Medicare Outpatient Dental Services (A-06-13-00003)                                 ii
                                                     TABLE OF CONTENTS


INTRODUCTION ..........................................................................................................................1

           Why We Did This Review ..................................................................................................1

           Objective .............................................................................................................................1

           Background .........................................................................................................................1
                 The Medicare Program ...........................................................................................1
                 Medicare Hospital Outpatient Dental Services .......................................................1
                 Parkland Health and Hospital System.....................................................................2

           How We Conducted This Review.......................................................................................2

FINDINGS ......................................................................................................................................2

           Unallowable Medicare Hospital Outpatient Dental Services .............................................2

RECOMMENDATIONS ................................................................................................................3

PARKLAND HEALTH AND HOSPITAL SYSTEM COMMENTS ...........................................3

APPENDIXES

           A: Audit Scope and Methodology .....................................................................................4

           B: Statistical Sampling Methodology ................................................................................6

           C: Sample Results and Estimates .......................................................................................7

           D: Parkland Health and Hospital System Comments ........................................................8




Parkland Hospital Medicare Outpatient Dental Services (A-06-13-00003)                                                                            iii
                                               INTRODUCTION

WHY WE DID THIS REVIEW

Dental services are generally excluded from Medicare coverage. Previous Office of Inspector
General work identified Medicare payments that exceeded charges for outpatient services,
resulting in significant overpayments. Some of these payments included charges for unallowable
outpatient dental services. For calendar years 2010 and 2011, Parkland Health and Hospital
System (Parkland Hospital) received the most reimbursement of any hospital in Texas for certain
Medicare outpatient dental services that we determined may be unallowable.

OBJECTIVE

Our objective was to determine whether Parkland Hospital claimed Medicare hospital outpatient
dental services in accordance with Medicare requirements.

BACKGROUND

The Medicare Program

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the program. CMS contracts with Medicare administrative contractors to process
and pay Medicare claims submitted by hospital outpatient departments.

Medicare Hospital Outpatient Dental Services

Medicare generally does not cover hospital outpatient dental services. Under the general
exclusion provisions of the Social Security Act, items and services in connection with the care,
treatment, filling, removal, or replacement of teeth or structures directly supporting the teeth
(e.g., preparation of the mouth for dentures or removal of diseased teeth in an infected jaw) are
not covered (section 1862(a)(12)). Coverage is not determined by the value or the necessity of
the dental care but by the type of service provided and the anatomical structure on which the
procedure is performed.

For hospital outpatient dental services to be covered, they must be performed as incident to and
as an integral part of a procedure or service covered by Medicare. 1 For example, Medicare
covers extractions done in preparation for radiation treatment for neoplastic diseases involving
the jaw, but a tooth extraction performed because of tooth decay is not covered.




1
    Medicare Benefit Policy Manual, Publication No. 100-02, chapter 15, section 150.


Parkland Hospital Medicare Outpatient Dental Services (A-06-13-00003)                               1
Parkland Health and Hospital System

Parkland Hospital is a short-term acute-care hospital in Dallas, Texas, that has 778 Medicare-
certified beds. Effective November 2012, Novitas Solutions, Inc., assumed full responsibility as
the Medicare administrative contractor for Jurisdiction H, which includes Texas.

HOW WE CONDUCTED THIS REVIEW

Our review covered 1,002 Medicare claim lines for hospital outpatient dental services, totaling
$1,200,587, provided by Parkland Hospital during the period January 1, 2010, through December
31, 2011. We excluded claim lines associated with a diagnosis related to cancer or physical
trauma because Medicare officials explained that these services are generally eligible for
Medicare payment. We reviewed a stratified random sample of 100 Medicare claim lines for
hospital outpatient dental services.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains our
statistical sampling methodology, and Appendix C contains our sample results and estimates.

                                                    FINDINGS

Parkland Hospital claimed Medicare reimbursement for hospital outpatient dental services that
did not comply with Medicare requirements. Of the 100 claim lines in our stratified random
sample, Parkland Hospital properly claimed Medicare reimbursement for one claim line.
Parkland Hospital reimbursed Medicare for one paid claim line before our audit work. The
remaining 98 claim lines were not claimed in accordance with Medicare requirements.

These errors occurred because Parkland Hospital did not have written policies and procedures in
place during our audit period related to billing for dental services. Additionally, Parkland
Hospital did not have system billing edits in place to ensure that it billed only for services that
met Medicare requirements. Using our sample results, we estimated that Parkland Hospital
improperly received at least $743,582 in Medicare reimbursement for hospital outpatient dental
services that did not comply with Medicare requirements.

UNALLOWABLE MEDICARE HOSPITAL OUTPATIENT DENTAL SERVICES

On most of its claim lines, Parkland Hospital billed Medicare for tooth extractions that were
typically performed as a result of tooth decay, which is not a covered service. 2 In addition,
Parkland Hospital billed Medicare for unallowable partial or full mouth x-rays of the teeth. In

2
    Medicare Benefit Policy Manual, Publication No. 100-02, chapter 15, section 150.



Parkland Hospital Medicare Outpatient Dental Services (A-06-13-00003)                                 2
most cases, Parkland Hospital performed the x-rays during a general dental examination and
evaluation, which also are excluded from Medicare coverage. 3 These unallowable extractions
and x-rays accounted for the majority, 87 percent, of all unallowable claim lines in our sample.
Other types of unallowable dental services varied and included, for example, the repair of a tooth
socket in preparation for dentures, neither of which is a covered service. 4

These errors occurred because Parkland Hospital did not have written policies and procedures in
place during our audit period related to billing for dental services. Additionally, Parkland
Hospital did not have system billing edits in place to ensure that it billed for services that met
Medicare requirements.

Using our sample results, we estimated that Parkland Hospital improperly received at least
$743,582 in Medicare reimbursement for hospital outpatient dental services that did not comply
with Medicare requirements.

                                           RECOMMENDATIONS

We recommend that Parkland Hospital:

          •   refund $743,582 to the Medicare administrative contractor and

          •   establish written policies and procedures and implement system billing edits to ensure
              that dental services are claimed in accordance with Medicare requirements.

PARKLAND HEALTH AND HOSPITAL SYSYTEM COMMENTS

In its comments on our draft report, Parkland Hospital agreed with our findings and
recommendations and explained that it had implemented a system billing edit to identify claims
for dental services and determine whether the dental services provided are covered services and
whether it is appropriate to submit the claims for Medicare payment.




3
    Medicare Benefit Policy Manual, Publication No. 100-02, chapter 15, section 150.
4
    Id.


Parkland Hospital Medicare Outpatient Dental Services (A-06-13-00003)                                  3
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered 1,002 Medicare claim lines for hospital outpatient dental services, totaling
$1,200,587, provided by Parkland Hospital during the period January 1, 2010, through December
31, 2011. We excluded claim lines associated with a diagnosis related to cancer or physical
trauma because Medicare officials explained that these services are generally eligible for
Medicare payment. We reviewed a stratified random sample of 100 Medicare claim lines for
hospital outpatient dental services obtained from CMS’s National Claims History file.

We limited our review of Parkland Hospital’s internal controls to those that were applicable to
the selected dental services because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

We performed our audit work from January through June 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Medicare laws, regulations, and guidance;

    •   interviewed Medicare officials to obtain an understanding of the Medicare requirements
        related to hospital outpatient dental services;

    •   interviewed Parkland Hospital officials to gain an understanding of its policies and
        procedures related to billing Medicare for hospital outpatient dental services;

    •   extracted from CMS’s National Claims History file a sampling frame of 1,002 Medicare
        claim lines for hospital outpatient dental services, totaling $1,200,587, for the period
        January 1, 2010, through December 31, 2011;

    •   selected a stratified random sample of 100 claim lines from the sampling frame;

    •   requested that Parkland Hospital officials conduct their own review of the selected claim
        lines to determine whether they thought that the services were billed correctly;

    •   evaluated the documentation obtained from Parkland Hospital for each sample item to
        determine whether the claim lines were paid in accordance with Medicare requirements;

    •   estimated the unallowable reimbursement paid in the total population of 1,002 Medicare
        claim lines; and



Parkland Hospital Medicare Outpatient Dental Services (A-06-13-00003)                               4
    •   discussed the results of our audit with Parkland Hospital officials.

See Appendix B for the details of our statistical sampling methodology and Appendix C for our
sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Parkland Hospital Medicare Outpatient Dental Services (A-06-13-00003)                           5
               APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicare claim lines submitted by Parkland Hospital for outpatient
dental services provided during the period January 1, 2010, through December 31, 2011.

SAMPLING FRAME

The sampling frame consisted of 1,002 Medicare claim lines for hospital outpatient dental
services totaling $1,200,587 for the period January 1, 2010, through December 31, 2011.

SAMPLE UNIT

The sample unit was a Medicare claim line for a hospital outpatient dental service for which
Medicare reimbursed Parkland Hospital.

SAMPLE DESIGN

We selected a stratified random sample.

                    Stratum                 No. of Items                Dental Payments
                       1                           30                        $36,208
                       2                         972                       1,164,379
                     Total                     1,002                      $1,200,587

SAMPLE SIZE

We selected a sample of 100 claim lines, 30 from stratum 1 and 70 from stratum 2.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General (OIG), Office of Audit Services (OAS), statistical
software to generate the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in stratum 1 from 1 to 1,002. After generating 30
random numbers, we selected the corresponding frame items. We removed the 30 audited
sample units from the sampling frame and consecutively numbered the sample units in stratum 2
from 1 to 972. After generating 70 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the total amount of inappropriate
Medicare payments for unallowable hospital outpatient dental services.


Parkland Hospital Medicare Outpatient Dental Services (A-06-13-00003)                            6
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                      Sample Details and Results

                                                                        Number of        Value of
           Sampling                                                     Unallowable    Unallowable
            Frame          Value of        Sample         Value of       Sampled      Sampled Claim
Stratum       Size          Frame           Size           Sample       Claim Lines       Lines
   1            30           $36,208          30           $36,208          29           $36,184
   2           972         1,164,379          70            68,473          69            68,473
 Total       1,002        $1,200,587         100          $104,681          98          $104,657


                            Estimated Value of Unallowable Services
                     (Limits Calculated for a 90-Percent Confidence Interval)

                                Point estimate                    $986,985
                                Lower limit                       $743,582
                                Upper limit                     $1,230,388




Parkland Hospital Medicare Outpatient Dental Services (A-06-13-00003)                            7
   APPENDIX D: PARKLAND HEALTH AND HOSPITAL SYSYTEM COMMENTS





              Parkland
                                                                                                    Mary S. Findley
                                                                                               Senior Vice President
                                                                                 Chief Compliance and Ethics Officer


            October 15, 2013

            Ms. Patricia Wheeler
            Regional Inspector General for Audit Services
            Department of Health & Human Services
            Office oflnspector General
            Office of Audit Services. Region VI
            II 00 Commerce Street, Room 632
            Dallas, Texas 75242

            Re:       Parkland Health & Hospital System
                      OIG Report Number A-06-13-00003

            Dear Ms. Wheeler:

            We have reviewed the Office of Inspector General's ("OlG") draft report entitled "Parkland
            Health and Hospital System Claimed Unallowable Medicare Reimbursement for Hospital
            Outpatient Dental Services." The OIG determined that for calendar years 2010 and 2011,
            Parkland Health & Hospital System ("Parkland"), based upon an extrapolated amount, was
            overpaid $743,582 for Medicare outpatient dental services. Parkland has prepared the comments
            herein in response to the recommendations and find ing in the draft report.

            Discussion of Recommendations

            Recommendation 1.

           The OIG recommended that Parkland refund $743,582 to the Medicare administrative contractor.

            Response

            Parkland concurs with this recommendation and will refund $743,582 to the Medicare
            administrative contractor.

            Recommendation 2.

            The OIG recommended that Parkland establish written policies and procedures and implement
            system billing edits to ensure that dental services are claimed in accordance with Medicare
            requirements.
            Parkland Health & Hospital System
            Office of Compl iance & Ethics
            5201 Harry Hines Blvd.   I   Dallas, TX 75235
            214.590.1171   I   f ax 214.590.5631
            parkla ndhospital.com




Parkland Hospital Medicare Outpatient Dental Services (A-06-13-00003)                                                  8
           Ms. Patricia Wheeler
           October 15,2013
           Page2


           Res ponse

           Parkland concurs with this recommendation. Parkland will establish written policies and
           procedures regarding submitting Medicare claims with dental services. In addition, in February
           2013, an edit, based upon CPT/HCPCS codes, was placed on the billing system to identify
           claims with dental services. These claims are routed to a work queue and then reviewed by
           Patient Financial Services and Health Information Management to determine whether the dental
           services provided are covered services and whether it is appropriate to submit the claim for
           payment. If the service is not covered, the charges are moved to the non-covered charges
           column on the claim and a GY modifier is appended to the code. The GY modifier indicates that
           the service is statutorily excluded or does not meet the definition of any Medicare benefit.
           Parkland is in the process of appending the GY modifier to all of the codes identified above on
           the Charge Description Master. As a result, all dental services will be billed as non-covered.
           This will eliminate the work queue and fully automate the reclassification process.


            We appreciate the opportunity to respond to the OIG draft report. lf you have any questions
            regarding this matter, please do not hesitate to call me at (214) 590-2156 or Kevin Pierce at (214)
            590-2871.


           YY)fullysubm~

            MaryFi~
            Sr. Vice President/Chief Compliance and Ethics Officer


            cc:    Felicia Heimer, HHS OIG




Parkland Hospital Medicare Outpatient Dental Services (A-06-13-00003)                                             9
